WR-B-01-03




         AUDIT
        REPORT




                                  UTILIZATION OF THE BIG
                                EXPLOSIVES EXPERIMENTAL
                                         FACILITY




                                           MARCH 2001




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                              March 13, 2001


MEMORANDUM FOR THE MANAGER, NEVADA OPERATIONS OFFICE

FROM:                 Lawrence R. Ackerly, Regional Manager (Signed)
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Utilization of the Big Explosives Experimental
                      Facility"

BACKGROUND

The National Nuclear Security Administration is responsible for managing the
high-explosive firing facilities used by the Stockpile Stewardship Program. In 1995, Lawrence Livermore
National Laboratory justified the need for a firing facility at the Nevada Test Site (NTS). The Big
Explosives Experimental Facility (BEEF), under the direction of the Nevada Operations Office (Nevada),
was designed and operated to perform large-load, high-explosive experiments that could not be done at
other Department of Energy (DOE) firing facilities. The objective of this audit was to determine if the
BEEF needed to operate on a full-time basis.

RESULTS OF AUDIT

We found that there was not a need to operate the BEEF on a full-time basis. Since it opened in February
1997, the BEEF was used to perform only a limited number of detonations (shots). In fact, most of the
shots performed at the BEEF could have been conducted at other DOE firing facilities. In addition, we also
determined that in the future, facility utilization might decline even further because potential users of the
facility were moving away from larger shots for which the BEEF was designed. If the BEEF was used on
an as-needed basis, $500,000 could be better used annually and the laboratory personnel could avoid
unnecessary travel costs to the NTS.

We recommended that Nevada operate the BEEF on an as-needed basis, require users to justify sending
shots to the BEEF that do not exceed local load limits, and periodically review the operations of the BEEF.

MANAGEMENT REACTION

Management concurred with the recommendations and agreed to operate the BEEF as needed and to
periodically review the operations of the BEEF.
UTILIZATION OF THE BIG EXPLOSIVES EXPERIMENTAL FACILITY

TABLE OF
CONTENTS


                 Overview

                 Introduction and Objective ............................................... 1


                 Conclusions and Observations ........................................ 1


                 Facility Operations


                 Details of Finding ............................................................ 3


                 Recommendations and Comments ................................. 4


                 Appendix


                 Scope and Methodology.................................................. 6
Overview
INTRODUCTION      The National Nuclear Security Administration (NNSA) is responsible
AND OBJECTIVE     for managing the high-explosive firing facilities used by the Stockpile
                  Stewardship Program. Chemical compounds or mechanical mixtures
                  that exert the pressure needed to detonate nuclear or advanced
                  conventional weapons are considered high explosives. Non-nuclear
                  testing of these explosives is performed in containment chambers or
                  remote outdoor locations with an array of special instrumentation.

                  In 1995, Lawrence Livermore National Laboratory (Livermore)
                  justified the need for a firing facility at the Nevada Test Site (NTS).
                  The proposed facility would perform large-load, high-explosives
                  experiments that exceeded the load limits of other Department of
                  Energy (DOE) firing facilities. In response to the stated need, the Big
                  Explosives Experimental Facility (BEEF) began operation in February
                  1997 and was available to all DOE users (principally, the Pantex Plant
                  (Pantex), Los Alamos National Laboratory (Los Alamos), Sandia
                  National Laboratories (Sandia), and Livermore). Although these sites
                  had their own firing facilities (40 in all), the BEEF was available for
                  larger denotations ranging up to the equivalent of 70,000 pounds of
                  explosives.

                  Nevada Operations Office (Nevada) and Livermore jointly operated the
                  BEEF. Nevada, through its contractor, provided the operation and
                  maintenance, while Livermore scheduled the detonations (shots).
                  Nevada's contractor had three full-time staff and a manager supporting
                  the day-to-day operation of the facility. Livermore had a full-time
                  facility manager; however, during the audit Livermore converted this
                  position to part-time. The objective of this audit was to determine if the
                  BEEF needed to operate on a full-time basis.

CONCLUSIONS AND   The BEEF did not need to operate on a full-time basis. Since it opened
OBSERVATIONS      in February 1997, the BEEF has been operated on a full-time basis even
                  though it was used to perform only a limited number of shots and most
                  of these shots could have been performed at other DOE locations. This
                  situation is not likely to improve since the trend is away from large
                  shots for which the BEEF was designed and some past potential users
                  have no plans to utilize the BEEF in the future.

                  Even though the BEEF had limited use, Nevada officials requested and
                  received funding from NNSA to operate the BEEF on a full-time basis.
                  At the conclusion of the audit, however, Nevada agreed that




Page 1                                                Introduction and Objective/
                                                      Conclusions and Observations
         approximately $500,000 annually could be better used if the facility
         were operated on an as-needed basis. Additionally, an unspecified
         amount of laboratory travel costs could be avoided.

         The audit identified a material internal control weakness that
         management should consider when preparing its yearend assurance
         memorandum on internal controls.




                                       ________(Signed)_______
                                       Office of Inspector General




Page 2                                      Conclusions and Observations
FACILITY OPERATIONS
Necessity For           A review of the workload of the BEEF indicated that there was no need
Operating BEEF On       to operate the facility on a full-time basis. Since its inception, very few
A Full-Time Basis       shots were performed at the facility, and even fewer actually had to be
                        done there. In its first 38 months of operation, 60 shots were performed
                        at the BEEF. Of this amount, just 3 had to be performed at this facility
                        because the load limits exceeded the limits imposed at other firing
                        facilities.

                        Even with Livermore and Los Alamos sending shots to the BEEF, the
                        facility was often inactive for extended periods of time. For example,
                        there were no shots for 3 straight months in Fiscal Year (FY) 1998, 7
                        straight months in FY 1999, and 4 of the first 6 months in FY 2000. In
                        total, no shots were conducted at the BEEF in 19 of the 38 months it
                        was open.

                        In the future, the usage of the BEEF will probably not increase. Sandia
                        and Pantex have never used the facility and had no plans to use it in the
                        future. Also, the Los Alamos program, which used the facility, is no
                        longer funded. Therefore, Livermore is the only user conducting shots
                        at the BEEF. Further, both Livermore and Los Alamos personnel stated
                        that the trend was moving away from the larger load-type shots.

Load Limits And Goals   Maximum load limits at firing facilities were established by local
                        environmental restrictions or firing facility safety limits. The load limit
                        for Livermore is 100 pounds and the load limit for Los Alamos is 5,000
                        pounds. In contrast, the load limit for the BEEF is 70,000 pounds.
                        Thus, the BEEF was primarily built to accommodate high-explosive
                        shots that cannot be done elsewhere.

                        NNSA established a goal as part of its annual performance plan to
                        ensure that all stockpile stewardship facilities remain operational.
                        However, the goal did not specify that facilities had to operate full-time
                        to be operational.

Review Of BEEF          Nevada had not reviewed the BEEF since it began operating in
Operations              February 1997. Instead, Nevada believed it had to operate the BEEF on
                        a full-time basis and requested and received funding based upon this
                        premise. Because Nevada officials believed that it had to operate the
                        BEEF full-time, it also did not review the shot projections or
                        detonations to determine if the facility was used full-time or how much
                        downtime the facility experienced. Further, Nevada did not review the
                        load limits of shots to determine if they had to be done at the BEEF or
                        if it was more economical to do them there.



Page 3                                                                      Details of Finding
                    Livermore officials stated that they were sending shots to the BEEF
                    because they wanted to give facility personnel practice and to keep
                    equipment calibrated. Further, discussions with Livermore and Los
                    Alamos officials indicated that it was more costly to perform the shots
                    at the BEEF because employees incurred travel costs to perform the
                    shots in addition to the costs of the shots. However, Los Alamos and
                    Livermore personnel indicated that through better planning, more shots
                    could be done at their own locations.

Funds Better Used   Nevada's budget for full-time operation of the BEEF was $1.3 million
                    in FY 2001. Of this amount, approximately $1 million was related to
                    the expense of having full-time personnel assigned to the facility. We
                    determined that since the BEEF had been used only half of the months
                    it was opened, at least $500,000 annually could be better used if the
                    facility were operated on an as-needed basis. Additional travel costs for
                    the laboratories, principally Livermore, would be avoided by
                    conducting shots at their own firing facilities. However, we did not
                    quantify these additional costs. During discussions of the audit results,
                    Nevada agreed with our figures.

RECOMMENDATIONS     To facilitate the economic operation of the BEEF, we recommend that
                    the Manager, Nevada Operations Office:

                    1. Operate the BEEF on an as-needed basis;

                    2. Require the laboratories or other users to justify sending shots to the
                       BEEF that do not exceed local load limits; and,

                    3. Periodically review the usage of the BEEF to see if further
                       operational cutbacks can be achieved.

MANAGEMENT          Nevada concurred with Recommendations 1 and 3. Accordingly,
REACTION            Nevada will prepare a plan to operate the BEEF on an as-needed basis.
                    The plan will consider, as a minimum, alternative actions regarding
                    charging practices and partial warm-standby. In addition, Nevada will
                    periodically review the usage of the BEEF. This review will be done
                    annually during the budget planning process.

                    Nevada said that it would need to work through the Office of Defense
                    Programs to address the second recommendation to require users to
                    justify the use of the BEEF.




Page 4                                              Recommendations and Comments
AUDITOR COMMENTS   Management's comments are responsive to the report.




Page 5                                          Recommendations and Comments
Appendix
SCOPE         The audit was performed from January 2000 through January 2001 at
              the NNSA Headquarters; Nevada, Oakland, and Albuquerque
              Operations Offices; NTS; Livermore; Los Alamos; Sandia; and Pantex.
              We reviewed the operations of the DOE's high-explosives firing
              facilities. There were 41 firing facilities reviewed in total. Based on
              the review, we found that 36 of the 41 facilities operated on an as-
              needed basis, 4 operated on a supportable full-time basis, and 1 (the
              BEEF) operated full-time but was not fully supported. Therefore, we
              focused the audit on the BEEF. We reviewed the BEEF operations
              from February 1997 through March 2000.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Interviewed personnel at NNSA Headquarters; Nevada,
                     Oakland, and Albuquerque Operations Offices; and contractor
                     personnel at Nevada, Livermore, Los Alamos, Sandia, and
                     Pantex;

                 •   Reviewed prior audit reports related to the audit objective;

                 •   Analyzed available shot records for the BEEF;

                 •   Toured firing facilities at Nevada, Livermore, Los Alamos,
                     Sandia, and Pantex;

                 •   Reviewed relevant performance measures in accordance with
                     the Government Performance and Results Act of 1993; and,

                 •   Reviewed local operating policies and procedures.

              The audit was performed according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. There were no relevant
              performance measures for high-explosive firing facilities. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              conducted a reliability assessment of computer-processed shot data and
              found the data to be reliable. Management waived the exit conference
              on January 30, 2001.




Page 6                                                   Scope and Methodology
                                                                      Report No.: WR-B-01-03


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
